TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service Provides
                        Valuable Assistance in Locating
                                Missing Children



                                        February 20, 2007

                              Reference Number: 2007-40-029




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 20, 2007


 MEMORANDUM FOR COMMISSIONER, INTERNAL REVENUE SERVICE


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Internal Revenue Service Provides Valuable
                               Assistance in Locating Missing Children (Audit # 200640012)

 This report presents the results of our review to determine whether opportunities exist to improve
 the efficiency and effectiveness of the Internal Revenue Service (IRS) Picture Them Home
 Program.

 Impact on the Taxpayer
 The IRS provides assistance in locating missing children by placing their photographs in printed
 instructions and publications. From January 2001 through July 2006,1 the IRS publicized
 2,493 pictures of missing children. Our analysis indicates that IRS data may provide useful leads
 for Federal Government law enforcement to locate missing children.

 Synopsis
 Since 2000, the IRS has partnered with the National Center for Missing and Exploited
 Children (NCMEC) to help locate missing children by publishing their pictures in printed
 instructions and publications. The NCMEC has received 587 leads relating to 259 children
 whose pictures have been printed in IRS instructions and publications; 87 of these children have
 been recovered. In addition, the IRS includes important tax information in its instructions and
 publications to assist families of missing children, such as information on filing status,



 1
  The IRS did not maintain statistical information for Calendar Year 2000, the first year in which pictures of missing
 children were published in printed IRS instructions and publications.
                     The Internal Revenue Service Provides Valuable Assistance in
                                      Locating Missing Children



dependency exemption, the Child Tax Credit, and the Earned Income Tax Credit. Information is
also available on the IRS’ public Internet web site (IRS.gov).
Enhancements can be made to the Picture Them Home Program. Improving the process the IRS
uses to publish the pictures of the missing children would allow it to include more pictures in its
printed instructions and publications. Quarterly, the IRS provides the NCMEC with a list that
shows which instructions and publications include which missing children. The lists provided to
the NCMEC are compiled from Picture Them Home Program management information. This
management information is also used to compile Program accomplishments, including the
number of pictures used and the number of instructions and publications that included these
pictures. However, this information is not always accurate.
Of additional significance is the value IRS data could provide if the data were used to help locate
missing children and/or their alleged abductors. Internal
Revenue Code Section 6103 restricts the IRS from sharing
taxpayer tax returns or return information.2 The law                IRS data contain address
provides that tax return information is confidential and         information that could lead to
may not be disclosed by the IRS, other Federal                       the recovery of missing
Government and State Government employees, and                              children.
certain others having access to the information, except as
provided in Section 6103. However, disclosure of tax return information to Federal Government
officers or employees for use in criminal investigations is an exception provided by Section 6103
(i). Generally, tax return information for specified tax period(s), pursuant to and upon the grant
of an ex parte order by a Federal Government district court judge or magistrate, shall be open to
inspection by or disclosure to officers and employees of any Federal Government agency who
are personally and directly engaged in the criminal proceedings.
An analysis of those NCMEC cases that contained Social Security Numbers for missing children
and/or alleged abductors identified new addresses (i.e., addresses different from those where the
children and/or alleged abductors lived at the time of the abductions). We identified new
addresses for 237 (46 percent) of 520 missing children and 104 (34 percent) of 305 alleged
abductors.
The Federal Bureau of Investigation has jurisdiction and investigative responsibilities over
crimes against children, including violations of Federal Government statutes relating to
kidnappings such as child abductions and domestic and international parental kidnappings.
Section 6103(i) authorizes disclosure of tax returns and return information to Federal
Government law enforcement personnel such as the Federal Bureau of Investigation if an
ex parte order is granted by a Federal district court judge or magistrate. The information, such as



2
    Internal Revenue Code Section 6103 (2006).
                                                                                                  2
                 The Internal Revenue Service Provides Valuable Assistance in
                                  Locating Missing Children



taxpayer identifying information and the sources of income and deductions, could provide leads
to help locate missing children and/or the alleged abductors.

Recommendations
To further increase the value of the Picture Them Home Program, the Commissioner, Wage and
Investment Division, should (1) ensure available blank space is consistently identified and
considered for picture placement in all instructions and publications and (2) develop a process to
ensure management information accurately reflects which instructions and publications include
which missing children.

Response
IRS management agreed with our recommendations. Management is emphasizing the proper use
of the OK-to-Print-Authorization (Form 9589) to ensure employees properly identify the location
of blank spaces and the names of missing children whose pictures are to be included. Permission
has been obtained from the NCMEC to include pictures of missing children in printed
continuous-use instructions and publications. Management will revise procedures to ensure the
accuracy of management information, including the data provided to the NCMEC that lists
which printed instructions and publications include which missing children. Management’s
complete response to the draft report is included as Appendix V.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                 3
                       The Internal Revenue Service Provides Valuable Assistance in
                                        Locating Missing Children




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Provides Valuable Assistance
          in Locating Missing Children .......................................................................Page 3
          Enhancements Can Be Made to Increase the Value of the
          Picture Them Home Program .......................................................................Page 4
                    Recommendation 1:..........................................................Page 5

                    Recommendation 2:..........................................................Page 6

          Internal Revenue Service Data May Provide Useful Leads for
          Law Enforcement to Locate Missing Children and/or Their Alleged
          Abductors......................................................................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Federal Government Agencies That Partner With the
          National Center for Missing and Exploited Children ...................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
        The Internal Revenue Service Provides Valuable Assistance in
                         Locating Missing Children




                       Abbreviations

IRS              Internal Revenue Service
NCMEC            National Center for Missing and Exploited Children
U.S.             United States
                    The Internal Revenue Service Provides Valuable Assistance in
                                     Locating Missing Children




                                              Background

Since 2000, the Internal Revenue Service (IRS) has partnered with the National Center for
Missing and Exploited Children (NCMEC) to help locate
missing children by publishing their pictures in printed
instructions and publications. The NCMEC was established in
1984 as a private, nonprofit organization to provide services for
families and professionals in the prevention of abducted,
endangered, and sexually exploited children. When the
NCMEC was established, former President Ronald Reagan described the NCMEC as a
“public/private partnership” and encouraged the Federal Government and private sectors to assist
in efforts to reunite missing children with their families.
The mission of the NCMEC is to help prevent child abduction and sexual exploitation;1 help find
missing children; and assist victims of child abduction and sexual exploitation, their families,
                                     and law enforcement personnel. The NCMEC has assisted
   The NCMEC assists families in     law enforcement personnel with more than 122,600 missing
   locating missing children. As     child cases, resulting in recovery of more than
    of October 2006, the NCMEC       104,900 missing children. In addition, it has trained more
     was working 3,943 missing       than 218,700 police and other professionals, handled more
            child cases.             than 401,200 reports of child sexual exploitation, distributed
                                     more than 40 million free publications, and handled more
than 2 million telephone calls through its national toll-free telephone line.
Appendix IV provides a list of Federal Government agencies that currently partner with the
NCMEC. The NCMEC is unique in that it is the only child protection nonprofit organization
provided access to the following:
•   Federal Bureau of Investigation National Crime Information Center Missing Person, Wanted
    Person, and Unidentified Person Files. These Files form a nationwide database of
    documented criminal justice information maintained by the Federal Bureau of Investigation,
    which provides criminal justice officials data-sharing capability to support efforts to locate
    missing and other persons.
•   National Law Enforcement Telecommunications System. This is a network of
    representatives of law enforcement agencies from around the United States (U.S.) and



1
 Sexual exploitation is a form of child abuse that can involve the molesting of a child, prostituting of a child, and/or
use of a child to create pornographic images for sexual and financial purposes.
                                                                                                                Page 1
                 The Internal Revenue Service Provides Valuable Assistance in
                                  Locating Missing Children



    Canada that facilitates interstate communications among law enforcement, criminal justice,
    and other agencies involved in law enforcement.
•   Federal Parent Locator Service. This is a data-collection service that derives its information
    from a network of Government computer systems including records of the IRS, the Social
    Security Administration, the National Personnel Records Center, the Department of Veterans
    Affairs, and State Government employment security agencies.
The IRS and the NCMEC entered into a partnership to place photographs of missing children in
IRS printed instructions and publications. In 2000, the NCMEC recognized how instrumental
the Chief, Technical Publications Branch, Media and Publications office, was in the IRS’
decision to participate in this Program and awarded
the Chief with the National Missing and Exploited
Children Award. The first pictures of missing            In January 2001, The National
                                                          Partnership for Reinventing
children were included in printed instructions and           Government awarded a
publications distributed in Calendar Year 2000. The      Hammer Award to the IRS for
NCMEC President commented that “one in six                   its Picture Them Home
missing children is found as a direct result of                      Program.
someone recognizing their photos, and we count
ourselves extremely fortunate to have the IRS as a powerful new partner in our Picture Them
Home campaign.”
Oversight of the Picture Them Home Program is the responsibility of the Media and Publications
office within the Wage and Investment Division. The Media and Publications office is
responsible for determining related policies and procedures, developing training material, and
monitoring and managing overall Program activity.
Each year, the NCMEC provides the IRS photographs of missing children with their associated
biographical information. This information includes the child’s name, the city and State from
which the child went missing, the date of the abduction, and contact information to reach the
NCMEC. Media and Publications office employees identify available blank space within the
printed instructions and publications they are developing and select the particular pictures to be
included in the available space.
This review was performed at the Media and Publications office in Washington, D.C., and at the
NCMEC office in Alexandria, Virginia, during the period July through October 2006. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                             Page 2
                    The Internal Revenue Service Provides Valuable Assistance in
                                     Locating Missing Children




                                       Results of Review

The Internal Revenue Service Provides Valuable Assistance in
Locating Missing Children
From January 2001 through July 2006,2 the IRS publicized 2,493 pictures of missing children in
its printed instructions and publications. The NCMEC has received 587 leads relating to
259 children whose pictures have been printed in IRS instructions and publications; 87 of these
children have been recovered.
The NCMEC considers a photograph one of the most important tools in the search for missing
children. It reports that one in six missing children is found as a direct result of someone
recognizing a child’s photograph. The NCMEC believes that somebody knows
where each missing child is, and it constantly works to bring photographs to the widest
audience possible. For example, a child missing for 7 years was found when an anonymous
individual recognized the child from a photograph in an IRS U.S. Individual Income Tax
Return (Form 1040) tax package and called the NCMEC.
Figure 1 provides the number of pictures included in instructions and publications and the
number of instructions and publications in which these pictures were included.
      Figure 1: Pictures Included in Calendar Year 2001–2006 Instructions and
                                    Publications

                                                                         Calendar Year
                                                         2001 2002 2003 2004 2005 2006

          Missing Children Pictures                       247      490      448      542     436      330
          Instructions and Publications
                                                          164      201      203      236     214        81
          Including Pictures
         Source: IRS management information system for Calendar Years 2001-2006 (as of July 25, 2006).

In addition, the IRS includes important tax information in its instructions and publications to
assist families of missing children, such as information on filing status, dependency exemption,
the Child Tax Credit, and the Earned Income Tax Credit. Information is also available on the
IRS’ public Internet web site (IRS.gov).

2
 The IRS did not maintain statistical information for Calendar Year 2000, the first year in which pictures of missing
children were published in printed IRS instructions and publications.
                                                                                                             Page 3
                 The Internal Revenue Service Provides Valuable Assistance in
                                  Locating Missing Children



However, enhancements can be made to the Picture Them Home Program. Improving the
process the IRS uses to publish the pictures of the missing children would allow it to include
more pictures in its printed instructions and publications.

Enhancements Can Be Made to Increase the Value of the Picture
Them Home Program
The Picture Them Home Program is achieved at minimal cost to the IRS. There are no
additional printing costs because the IRS is charged per page regardless of what is included on
the page. Media and Publications office employees have integrated the Picture Them Home
Program into the development and distribution of over 98 million printed instructions and
publication documents. Employees identify available blank space within the instructions and
publications they are developing and if appropriate select the particular picture(s) to be included
in the available blank space. IRS guidelines remind employees that diversity is important when
selecting pictures to include.
Available space needs to be consistently identified
Consistent identification of available space could increase the value of the Program. When
developing IRS instructions and publications, employees should ensure all blank space is being
considered for use. Employees use the comments section of the OK-to-Print-Authorization
(Form 9589) to document the page number of each blank (and partially blank) page, the size of
the picture to be used (i.e., full page, half page or quarter page, depending on the amount of
blank space), and the name of the missing child to include in the blank space. However, the
comments section is not always completed on these Forms; therefore, not all available blank
space is being identified and considered for use.

Program guidelines should be modified
The IRS could further expand the Picture Them Home Program by including pictures of missing
children in printed continuous-use instructions and publications instead of limiting them to
inclusion in printed annual instructions and publications (those produced each year). A
continuous-use tax product is produced and available for multiple years and does not have to be
revised annually. Program guidelines exclude the use of continuous-use instructions and
publications for the Picture Them Home Program. The IRS’ concern is that a child could be
recovered yet the child is still pictured as missing in a continuous use tax product which can be
in circulation for multiple years.
However, discussions with the NCMEC identified that the potential benefits outweigh the risks.
The NCMEC indicated that the IRS could publish pictures of children who have been missing a
number of years in continuous-use tax products. Figure 2 provides a breakdown of and
distribution volumes for the continuous-use instructions and publications that could include
pictures of missing children.

                                                                                             Page 4
                    The Internal Revenue Service Provides Valuable Assistance in
                                     Locating Missing Children



    Figure 2: Continuous-Use Instructions and Publications Printed in 2001–20063

                                       Number of Continuous-Use                     Distribution
          Tax Division
                                              Products                                Volume

          Business                                     49                           42.7 million
          Individual                                     9                          19.1 million

          Totals                                       58                           61.8 million
        Source: Media and Publications office.

The accuracy of Program management information needs to be improved
Quarterly, the IRS provides the NCMEC with a list that shows which printed instructions and
publications include which missing children. The NCMEC can use this information to show the
families of missing children the efforts being taken to locate their missing children. Our
comparison of Tax Year 2005 instructions and publications to the lists provided to the NCMEC
showed this information is not always accurate. The IRS has not developed a process to ensure
management information is accurate. The IRS should ensure the lists are accurate so families of
missing children are provided with correct information.
The lists provided to the NCMEC are compiled from Picture Them Home Program management
information. This management information is also used to compile Program accomplishments,
including the number of pictures used and the number of printed instructions and publications
that included these pictures. Review of a judgmental sample of 17 Tax Year 2005 instructions
and publications along with an analysis of the related management information determined
(1) pictures included in instructions and publications were not always reflected in management
information and (2) pictures reflected in management information were not always found in the
specific instruction or publication. As a result, data on the Program, including the data in
Figure 1, may not be completely representative of the Program.

Recommendations
To further increase the value of the Picture Them Home Program, the Commissioner, Wage and
Investment Division, should:
Recommendation 1: Ensure available blank space is consistently identified and considered
for picture placement in all printed instructions and publications, including revising guidelines to
include those that are continuous-use documents.

3
 Figures represent continuous-use instructions and publications printed during the period March 28, 2001, through
September 27, 2006.
                                                                                                           Page 5
                    The Internal Revenue Service Provides Valuable Assistance in
                                     Locating Missing Children



         Management’s Response: IRS management agreed with the recommendation.
         Management will emphasize the proper use of Form 9589. Management has obtained
         permission from the NCMEC to use pictures in continuous-use documents. Operating
         procedures will be revised in Fiscal Year 2007 to formalize the above enhancements to
         the Program.
Recommendation 2: Develop a process to ensure management information, including the
lists provided to the NCMEC, accurately reflects which printed instructions and publications
include which missing children.
         Management’s Response: IRS management agreed with the recommendation.
         Management will revise procedures to provide copies of the final proof of tax products to
         the compiler of the list given to the NCMEC. This will help ensure the list accurately
         reflects which instructions and publications include which missing children.

Internal Revenue Service Data May Provide Useful Leads for Law
Enforcement to Locate Missing Children and/or Their Alleged
Abductors
Of additional significance is the value that IRS data could provide to help locate missing
children. IRS data contain information that could lead to the recovery of missing children;
however, Internal Revenue Code Section 6103 restricts the IRS from sharing taxpayer tax returns
or return information except as authorized.4 The law provides that this information is
confidential and may not be disclosed by the IRS, other Federal Government or State
Government employees, and certain others having access to the information except as provided
in Section 6103. Section 6103 specifies which agencies (or other entities) may have access to
tax return information, the type of information they may access, for what purposes such access
may be granted, and under what conditions the information will be received. The NCMEC is not
currently provided access to either tax returns or return information.
Congress has expressed interest in using IRS data as an additional tool to locate missing children.
In May 2004, legislation was proposed to streamline the way U.S. law enforcement agencies deal
with abduction cases, both domestically and internationally.5 This legislation contained a
proposal to amend Internal Revenue Code section 6103 relating to disclosure of taxpayer identity

4
  Internal Revenue Code Section 6103 (2006). “The term ‘return’ means any tax or information return, declaration
of estimated tax, or claim for refund required by or provided for or permitted under, the provisions of [Title 26]
which is filed with the Secretary by, on behalf of, or with respect to any person, including supporting schedules,
attachments, or lists which are supplemental to, or part of, the return so filed.” The term “return information”
includes a taxpayer’s identity and the nature, source, or amount of his or her income, payments, receipts, deductions,
exemptions, credits, assets, liabilities, net worth, tax liability, tax withheld, deficiencies, overassessments, or tax
payments.
5
  International Assistance to Missing and Exploited Children Act of 2004 (H .R. 4347).
                                                                                                              Page 6
                    The Internal Revenue Service Provides Valuable Assistance in
                                     Locating Missing Children



information by allowing disclosure of taxpayer identity information to the NCMEC and the
Department of State. The legislation proposed that the mailing address and any business address
of any taxpayer or dependents be disclosed to the NCMEC or the Secretary of State for use in
locating and recovering missing and exploited children.
In support of the proposed legislation, the Honorable Dennis DeConcini, U.S. Senate (Retired),
and Chairman, Board of Directors, NCMEC, testified in June 2004 before the International
Relations Committee of the U.S. House of Representatives. He stated that, in 2002, the
NCMEC, in conjunction with the IRS, conducted an experiment in which the names of missing
children, along with known facts about their cases, were run through the IRS information
databases to determine the location of the missing children. According to the testimony, the
“results were astounding.” The IRS databases contained information that could lead to the
recovery of a missing child in two-thirds of the cases submitted. The legislation was never
enacted.
To evaluate whether IRS data could provide a benefit in locating missing children, we obtained
current data from the NCMEC and matched the data of 1,731 missing children to data in the IRS’
databases.6 These cases involve family abductions, which represent the majority of missing
children cases. In family abduction cases, a noncustodial family member7 has taken a child in
violation of a custody agreement or did not return a child in compliance with the specified
custody order. The NCMEC indicated that alleged abductors in these cases are most likely to
resurface in society (e.g., possibly to obtain employment and file tax returns).
From the NCMEC’s list of 1,731 missing children cases, we identified which cases contained
Social Security Numbers for the missing children and/or alleged abductors and searched IRS
records to determine if tax returns filed during the last 5 years (Processing Years 2002 through
2006) contained these Social Security Numbers. We were unable to match all cases because
some cases did not contain Social Security Numbers8 for the missing children and/or the alleged
abductors. Of the 1,731 NCMEC cases:
•   Thirty-seven percent (632 of 1,731) had Social Security Numbers for the missing children.
•   Twenty-six percent (452 of 1,731) had Social Security Numbers for the alleged abductors.
A match of those cases with Social Security Numbers to IRS data showed Social Security
Numbers had been used on tax returns to file or claim exemptions and/or dependents for 520 of
the missing children and 305 of the alleged abductors. An analysis of the addresses listed on


6
  We did not assess the process followed by the NCMEC to compile information provided nor did we perform
validity checks to assess the accuracy of the information provided.
7
  A family member is defined as a person related to the child by blood or marriage or designated as the child’s legal
guardian.
8
  NCMEC management indicated that despite determined attempts they are often unable to obtain the Social
Security Numbers of missing children and/or alleged abductors.
                                                                                                              Page 7
                 The Internal Revenue Service Provides Valuable Assistance in
                                  Locating Missing Children



these tax returns showed new addresses for the children and alleged abductors (i.e., an address
subsequent to the abduction different from the address where the child and/or alleged abductor
lived at the time of the abduction). Figure 4 quantifies the number of new addresses found for
the children and alleged abductors.
   Figure 4: Results of Matching NCMEC Missing Child Information to IRS Data

                           Cases With Social                            Cases for Which IRS
                           Security Numbers                               Data Revealed
                           Matching IRS Data                              New Addresses

Missing Children                    520                                        237 (46%)
Alleged Abductors                   305                                        104 (34%)
 Source: Results of our matching of Social Security Numbers provided by the NCMEC to IRS computer data.

Although the legislation that proposed taxpayers’ mailing and businesses addresses be
shared with the NCMEC to help locate missing children was not enacted, we believe this
source of information could still be of significant benefit. The current law does contain a
provision that allows the IRS to provide tax return information to Federal Government
law enforcement agencies for use in criminal investigations. Internal Revenue Code
Section 6103(i) states:
   . . . any return or return information with respect to any specified taxable period or
   periods shall, pursuant to and upon the grant of an ex parte order by a Federal
   district court judge or magistrate. . ., be open (but only to the extent necessary as
   provided in such order) to inspection by, or disclosure to, officers and employees
   of any Federal Government agency who are personally and directly engaged in . . .
   any investigation which may result in [a judicial or administrative proceeding
   pertaining to the enforcement of a specifically designated Federal criminal statute
   (not involving tax administration)].
The Federal Bureau of Investigation has jurisdiction and investigative responsibilities over
crimes against children, including violations of Federal Government statutes relating to
kidnappings such as child abductions and domestic and international parental kidnappings.
Section 6103(i) authorizes disclosure of tax returns and return information to Federal
Government law enforcement personnel such as the Federal Bureau of Investigation if an ex
parte order is granted by a Federal district court judge or magistrate. The information, such
as taxpayer identifying information and the sources of income and deductions, could
provide leads to help locate missing children and/or the alleged abductors.




                                                                                                     Page 8
                The Internal Revenue Service Provides Valuable Assistance in
                                 Locating Missing Children



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether opportunities exist to improve the efficiency and
effectiveness of the IRS Picture Them Home Program. To accomplish this objective, we:
I.     Identified key processes and procedures.
       A. Discussed with applicable IRS personnel the process followed for identifying,
          selecting, and publishing pictures of missing children.
       B. Performed a walk-through of NCMEC operations.
       C. Selected and analyzed a judgmental sample of 16 Tax Year 2005 instructions and
          publications to assess whether the OK-to-Print-Authorization (Form 9589) was
          correctly prepared. Judgmental sampling was used because we did not identify the
          universe of instructions and publications and the Picture Them Home Program
          management information was not accurate.
II.    Assessed the accuracy and reliability of management information.
       A. Obtained an extract of Program management information for Calendar Years 2001
          through 2006.
       B. Determined the process followed by the IRS for reviewing management information.
       C. Selected and analyzed a judgmental sample of 17 Tax Year 2005 instructions and
          publications to assess whether pictures included in the products sampled were
          accurately recorded in IRS management information. Judgmental sampling was used
          because we did not identify the universe of instructions and publications and Picture
          Them Home Program management information was not accurate.
III.   Determined actions taken by the IRS to assist families of missing children with tax
       information.
IV.    Determined the feasibility of using IRS data to assist in locating missing children.
       A. Identified and attempted to review a prior study performed by the IRS in coordination
          with the NCMEC and evaluate the methodology and results to assess the merits of
          using IRS tax return data to assist efforts to locate missing children. The IRS was
          unable to locate the methodology and/or results from the prior study.
       B. Identified and reviewed legislative activity that has focused on the use of IRS tax data
          to locate missing children.

                                                                                              Page 9
         The Internal Revenue Service Provides Valuable Assistance in
                          Locating Missing Children



C. Determined whether methods, other than amendments to the Internal Revenue Code,
   exist that could increase the value of the Picture Them Home Program.
D. Obtained from the NCMEC a listing of 1,731 missing children. These cases involve
   family abductions, which represent the majority of missing children cases. We did
   not assess the process followed by the NCMEC to compile information provided nor
   did we perform validity checks to assess the accuracy of the information provided.
E. Matched the NCMEC’s listing of 1,731 missing children cases that contained Social
   Security Numbers for the missing children and/or alleged abductors and searched IRS
   records to determine if tax returns filed during the last 5 years (Processing Years 2002
   through 2006) contained these Social Security Numbers. For those with a match, we
   attempted to identify new addresses for the children and alleged abductors.




                                                                                   Page 10
               The Internal Revenue Service Provides Valuable Assistance in
                                Locating Missing Children



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Robert Howes, Lead Auditor
Pamela DeSimone, Senior Auditor
Jean Bell, Auditor
Roberta Fuller, Auditor
James Allen, Information Technology Specialist




                                                                                   Page 11
                The Internal Revenue Service Provides Valuable Assistance in
                                 Locating Missing Children



                                                                             Appendix III

                          Report Distribution List

Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Criminal Investigation SE:CI
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
       Division SE:S:CLD
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 12
                 The Internal Revenue Service Provides Valuable Assistance in
                                  Locating Missing Children



                                                                                 Appendix IV

Federal Government Agencies That Partner With the
 National Center for Missing and Exploited Children


-   Bureau of Alcohol, Tobacco, Firearms,       -   Law Enforcement Online
    and Explosives

-   Bureau of Indian Affairs                    -   National Law Enforcement
                                                    Telecommunications System

-   Criminal Justice Information Services (of   -   Regional Information Sharing System
    the U.S. Department of Justice, for
    access to the National Crime
    Information Center database)

-   Cyber Crimes Center (at U.S.                -   Transportation Security Administration
    Immigration and Customs Enforcement)

-   Europol                                     -   U.S. Department of Agriculture

-   Federal Government Air Marshal              -   U.S. Department of State
    Service

-   Federal Government Bureau of                -   U.S. Immigration and Customs
    Investigation                                   Enforcement

-   Federal Government Parent Locator           -   U.S. Marshals Service
    Service

-   Financial Crimes Enforcement Network        -   U.S. Postal Inspection Service
    of the U.S. Department of the Treasury

-   Interpol                                    -   U.S. Postal Service

-   Interstate Identification Index             -   U.S. Secret Service

Source: The NCMEC.

                                                                                          Page 13
    The Internal Revenue Service Provides Valuable Assistance in
                     Locating Missing Children



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 14
The Internal Revenue Service Provides Valuable Assistance in
                 Locating Missing Children




                                                       Page 15
The Internal Revenue Service Provides Valuable Assistance in
                 Locating Missing Children




                                                       Page 16
The Internal Revenue Service Provides Valuable Assistance in
                 Locating Missing Children




                                                       Page 17
